No. ____________
IN THE

Kenneth Clark
Petitioner,
v.
Matthew Cate
Respondent
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE

I, Jonathan C. Aminoff, a Deputy Federal Public Defender in the Office
of the Federal Public Defender who was appointed as counsel for Petitioner
under the Criminal Justice Act, 18 U.S.C. ยง 3006(A)(b), hereby certify that on
July 27, 2020, a copy of Motion for Leave to Proceed in Forma Pauperis,
Petition for Writ of Certiorari, and Appendix were sent electronically and
mailed postage prepaid to:

Ronald A. Jakob
600 West Broadway, Suite 1800
San Diego, CA 92101
ronald.jakob@doj.ca.gov
(619) 738-9149
All parties required to be served have been served. I declare under
penalty of perjury under the laws of the United States of America that the
foregoing is true and correct.
Executed on July 27, 2020 in Los Angeles, California.
/s/ Jonathan C. Aminoff
Jonathan C. Aminoff*
Deputy Federal Public Defender
Attorney for Petitioner
Kenneth Clark
*Counsel of Record

